 

WAIVER

SUPREME COURT OF THE UNITED STATES

Supreme Court Case No.20-5504

Kevin L. Martin y, Cathleen Capron, et al.

(Petitioner) (Respondent)
I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check one of the following boxes:
@ Please enter my appearance as Counsel of Record for all respondents.

(There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

  

your name has change

 

ce your "=
Signature : 7S 2 :
Date: t/a [2020

Aaron T. Craft
Our OMs. Q)Mrs. Miss
Office of the Attorney General

 

(Type or print) Name.

 

Firm

 

Address_Indiana Government Center South, 302 W. Washington Street, Fifth Floor
City & State Indianapolis, IN Zip 46204
Phone 317-232-4774

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

SEE REVERSE FOR INFORMATION CONCERNING THE STATUS OF A CASE ON THE
DOCKET.

CC: Kevin L. Martin DOC #169789
Westville Correctional Facility 5501 S. 1100 W.
Westville, IN 46391
